HHS/OIG, Audit - "Partnership Review of Psychotherapy Claims Submitted by Two Payees Under the Illinois Medicaid Program," (A-05-01-00068)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Partnership Review of Psychotherapy Claims Submitted by Two Payees Under
the Illinois Medicaid Program," (A-05-01-00068)
July 12, 2002
Complete
Text of Report is available in PDF format (727 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of
this partnership review with the Inspector General, Illinois Department of Public
Aid (IDPA) was to develop and validate a time dependent billing routine that
would identify practitioners who submitted claims for more time than is feasible
in a day.  The routine identified practitioners who billed for one or more
12-hour days for dates of service from July 1, 1998 to June 30, 2000.
Two organizations were identified as alternate payees for several physicians
in the time dependent billing project.  The alternate payees claimed physician
psychotherapy services and received payments on behalf of the physicians.
We concluded that the physicians did not provide the psychotherapy services
claimed by the alternate payees.  Counselors employed by the alternate
payees allegedly provided family counseling services, which were claimed, using
the physicians' Medicaid provider number, as individual psychotherapy services
provided by physicians.  None of the services billed by the two alternate
payees, during the audit period, were performed by physicians; therefore, we
recommended that IDPA recover the unallowable payments made to the two alternate
payees totaling $7,581,693 (Federal share ($3,790,846).  The State agency
concurred with our findings and recommendation.